No.
IN THE
SUPREME COURT OF THE UNITED STATES

ANTONIO MEDINA

— PETITIONER

VS.
UNITED STATES

— RESPONDENT

PROOF OF SERVICE
I, Jinwen Wang
., do swear or declare that on this
date,
September 21
2021 , as required by Supreme Court Rule 29 I
have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for dehvery within 3 calendar days.
The names and addresses of those served are as followsSolicitor General of the United States, Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D. C. 20530-0001
I declare under penalty ofperjury that the foregoing is true and correct.

vi
Executed on September 21.2021

